No. 20-5398
IN THE

LEZMOND CHARLES MITCHELL,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent
On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Ninth Circuit
CERTIFICATE OF SERVICE

I, Celeste Bacchi, a Deputy Federal Public Defender in the Office of the
Federal Public Defender who was appointed as counsel for Petitioner under the
Criminal Justice Act, 18 U.S.C. ยง 3006(A)(b), hereby certify that on August 18,
2020, a copy of EMERGENCY APPLICATION FOR A STAY OF EXECUTION
PENDING FINAL DISPOSITION OF PETITION FOR A WRIT OF
CERTIORARI was sent electronically and mailed postage prepaid to:
//
//

William G. Voit, Assistant U.S. Attorney
Office of the U.S. Attorney
Two Renaissance Square
40 N. Central Avenue, Suite 1800
Phoenix, Arizona 85004-4449
William.Voit@usdoj.gov
All parties required to be served have been served. I declare under penalty of
perjury under the laws of the United States of America that the foregoing is true
and correct.
Executed on August 18, 2020, at Los Angeles, California.

/s/ Celeste Bacchi
CELESTE BACCHI*
Deputy Federal Public Defender
Attorneys for Petitioner
LEZMOND CHARLES MITCHELL
*Counsel of Record

